No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

MICHAEL EUGENE WYATT, Petitioner,
v.
JOHN SUTTON, Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

MOTION TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 18, United States Code ยง 3006A(d)(7) and Rule 39 of this Court,
Petitioner Michael Eugene Wyatt asks leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of fees and costs and to proceed in forma pauperis. Petitioner was
represented by counsel pursuant to Title 18, United States Code, ยง3006A(b), (d)(7) on
appeal to the Ninth Circuit Court of Appeals.
Dated: February 20, 2021

s/ Mary E. Pougiales
MARY E. POUGIALES
1 Blackfield Drive, # 111
Tiburon, CA 94920
Counsel of record for Petitioner
Michael Eugene Wyatt

